                             Department of the Interior
                             Office of Inspector General




           AUDIT REPORT



                U.S. Fish and Wildlife Service
            Federal Assistance Program Grants
              Awarded to the State of Arizona,
            Department of Game and Fish, From
            July 1, 2003, Through June 30, 2005




Report No. R-GR-FWS-0026-2005              June 2007
               United States Department of the Interior
                         OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                    Reston, Virginia 20191

                                                                                    June 5, 2007

                                   AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Christina M. Bruner
           Director of External Audits

Subject:   Audit Report on the U.S. Fish and Wildlife Service Federal Assistance Program
           Grants Awarded to the State of Arizona, Department of Game and Fish, From
           July 1, 2003, Through June 30, 2005 (No. R-GR-FWS-0026-2005)

       This report presents the results of our audit of costs incurred by the State of Arizona,
Department of Game and Fish (Department), under grants awarded by the U.S. Fish and Wildlife
Service (FWS). FWS provided the grants to the State under the Federal Assistance Program for
State Wildlife Restoration and Sport Fish Restoration (Federal Assistance Program). The audit
included claims totaling approximately $33 million on six Federal Assistance Program grants that
were open during the State fiscal years (SFYs) ended June 30 of 2004 and 2005 (see Appendix 1).
The audit also covered Department compliance with applicable laws, regulations, and FWS
guidelines, including those related to the collection and use of hunting and fishing license
revenues and the reporting of program income.

       We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we questioned costs totaling $911,540 (federal share) and
developed findings related to in-kind contributions, program income, and indirect costs.

       We provided a draft of the report to FWS and the Department for response. We
summarized Department and FWS Region 2 responses after each recommendation, as well as our
comments on the responses. FWS stated they concur with the findings and recommendations
and support the concepts proposed by the Department to resolve the findings and implement the
recommendations. We list the status of each recommendation in Appendix 3.

        Please respond in writing to the findings and recommendations included in this report by
September 3, 2007. Your response should include information on actions taken or planned,
targeted completion dates, and titles of the officials responsible for implementation.

      If you have any questions regarding this report, please contact the Federal Assistance
Coordinator, Mr. Chris Krasowski at 703-487-5375 or me at 703-487-5345.

cc: Regional Director, Region 2, U.S. Fish and Wildlife Service
                                               Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Federal Assistance Program for State Wildlife Restoration and Sport
Fish Restoration. Under the Federal Assistance Program, FWS provide grants to States to
restore, conserve, manage, and enhance their sport fish and wildlife restoration programs. The
Acts and federal regulations contain provisions and principles on eligible costs and allow FWS to
reimburse the States up to 75 percent of the eligible costs incurred under the grants. The Acts
also require that hunting and fishing license revenues be used only for the administration of the
State’s fish and game agency. Finally, federal regulations and FWS guidance require states to
account for any income they earn using grant funds.

Objectives
Our audit objectives were to determine whether the Department:

           incurred the costs claimed under Federal Assistance Program grants in accordance with
           the Acts and related regulations, FWS guidelines, and the grant agreements;

           used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

           reported and used program income in accordance with federal regulations.

Scope
The audit work included claims totaling approximately $33 million on six FWS grants that were
open during the SFYs ended June 30 of 2004 and 2005 (see Appendix 1). We performed our
audit at Department headquarters in Phoenix, AZ. We also visited five wildlife areas, one fish
hatchery, and one shooting range (see Appendix 2). We performed this audit to supplement, not
replace, the audits required by the Single Audit Act Amendments of 1996 and by the Office of
Management and Budget Circular A-133.

Methodology
We performed our audit in accordance with the ―Government Auditing Standards‖ issued by the
Comptroller General of the United States. We tested records and conducted other auditing
procedures as necessary under the circumstances. Our tests and procedures included:

          examining the evidence that supports selected expenditures charged to the grants by the
          Department;

1
    As amended, 16 U.S.C. §§ 669 and 777, respectively.

                                                          2
        reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

       interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

       conducting site visits to review equipment and other property; and

       determining whether the Department used hunting and fishing license revenues solely for
       sport fish and wildlife program purposes.

To the extent possible, we relied on the work of the Arizona Office of the Auditor General’s
Single Audit for SFY2004, to avoid duplication of audit effort.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions for testing. We did not project the results of tests to the total population of recorded
transactions, nor did we evaluate the economy, efficiency, or effectiveness of Department
operations.

Prior Audit Coverage
On January 23, 2003, we issued our advisory report ―Costs Claimed by the State of Arizona,
Department of Game and Fish, Under Federal Aid Grants from the U.S. Fish and Wildlife
Service from July 1, 1998 through June 30, 2000.‖ We followed up on all recommendations in
the report and determined that the Department of the Interior, Office of the Assistance Secretary
for Policy, Management and Budget considered them resolved and implemented.

We reviewed Arizona’s Comprehensive Annual Financial Report and single audit report for
SFY2004. The Sport Fish Restoration and Wildlife Restoration Programs were selected for
compliance testing in the SFY2004 single audit report. The SFY2004 single audit report did not
contain any findings that would directly impact FWS Federal Assistance grants.




                                                3
                                           Results of Audit

We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we discovered several
conditions that resulted in the findings listed below. We discuss the findings in more detail in
the Findings and Recommendations Section.

        Questioned Costs. We questioned $911,540 in costs (federal share), which were
        unallowable, overstated (or understated), out-of-period, or improperly claimed.

        Inadequate Support for In-kind Contributions. Volunteer hours the Department used
        as the State matching share of grant costs were not certified, as required.

        Improperly Reported Program Income. The Department reported program income
        using a method that was different from that specified in the grant agreement.

        Potential for Diversion of License Revenue. The method used by the Department to
        account for indirect costs creates the potential for a diversion of license revenue.

Findings and Recommendations
A.      Questioned Costs

        We summarize questioned costs in the table below, and then discuss them in detail. 2

                                               Grant              Grant                              Federal
                                             FW-100-P-11        FW-100-P-12            Total          Share
           Unallowable PIPP Costs               $289,233           $302,090           $591,323       $396,057
           Overstated or Understated
           Equipment Costs                          149,754            148,834         298,588        200,064
           Out-of Period Costs                      162,385            241,680         404,065        269,931
           Improperly Claimed
           Leave Payout Costs                        47,267                   0         47,267          32,142
           Improperly Charged
           Direct Costs                                6,000              6,000         12,000           8,040
           Overstated Costs                                0              7,000          7,000           4,620
           Improperly Charged
           Bookkeeping Costs                         1,009                  0            1,009            686
                                                  $655,648           $705,604       $1,361,252       $911,540

                            Table 1. Summary of Questioned Costs by Category and Grant



2
 Based on the Department response to the draft report, we recalculated the questioned costs. For comprehensive
grant agreement FW-100-P-11, the federal share is 68 percent federal and FW-100-P-12 is 66 percent.

                                                      4
1.   Unallowable Costs Incurred Under the Performance-Based Incentive
     Program — $396,057

     The Department claimed costs incurred for activities that are not allowable under
     the grants. The Department performed these activities under the authority of its
     Performance-Based Incentive Program Plan (PIPP), which involves establishing
     projects or programs to promote the efficiency and effectiveness of the State
     Government. Managers believed that PIPP activities benefited the Department
     and the Federal Assistance Program grants and, therefore, that charges related to
     PIPP programs and projects were allowable. They did not assess whether
     individual charges related to PIPP programs or projects were allowable under or
     allocable to the grants.

     Charging PIPP activities to Federal Assistance grants is not necessarily
     prohibited. However, the Department claimed costs for enforcing laws related to
     boaters, obtaining funding from alternative sources, and increasing agency
     marketing effectiveness. For example, the Department received reimbursement
     from Federal Assistance Program grant funds of $1,585 for a law enforcement
     activity implemented under the PIPP. Regulations specifically prohibit federal
     reimbursement for such activities. The Department also claimed costs for
     increasing building and lighting efficiency and for improving the helicopter
     procurement and billing process. Since such activities benefit more than one
     program, they would normally be charged as indirect costs and not be charged
     directly to a Federal Assistance Program grant.

     The Code of Federal Regulations (50 C.F.R. §§ 80.15, 80.16, respectively)
     specify that:

            Allowable costs are costs that are necessary and reasonable for
            accomplishment of approved project purposes and are in
            accordance with the cost principles of OMB Circular A–87
            [recently codified at 2 C.F.R. § 225].

            Payments shall be made for the Federal share of allowable costs
            incurred by the State in accomplishing approved projects.

     In addition, 50 C.F.R. § 80.6 specifically prohibits federal reimbursement for both
     law enforcement activities conducted by the State to enforce the fish and game
     regulations and for public relations activities conducted to promote the State fish
     and game agency. Finally, OMB Circular A-87, Attachment E, states, ―Indirect
     costs are those that have been incurred for common or joint purposes. These costs
     benefit more than one cost objective….‖

     We could not determine the allowability or allocability of each PIPP-related
     transaction cost charged to Federal Assistance Program grants because of the
     number of individual transactions within projects. Therefore, we questioned the
     total claimed PIPP costs of $591,323 ($396,057 federal share) for SFYs 2004
     ($289,233) and 2005 ($302,090).
                                    5
Recommendations

We recommend that FWS:

1.    resolve the questioned cost of $396,057,

2.    require the Department to analyze the PIPP transactions to determine which
      projects and activities supporting the claimed PIPP payments are allowable
      under and allocable to Federal Assistance Program grants, and

3.    require the Department to establish procedures for determining which PIPP
      projects and activities are allowable under and allocable to Federal
      Assistance Program grants.

Department Response

Department officials do not concur with the recommendations. They emphasized
that they do not base PIPP payments on individual tasks an employee performs,
and therefore do not allocate the payments by task. Rather, they base PIPP
payments charged to Federal Assistance Program grants on the amount of time an
employee who receives a PIPP payment spent working on the grant throughout
the year. Therefore, officials believe that they allocate costs associated with the
PIPP compensation program appropriately to all Department funding sources.

FWS Response

FWS Region 2 management concurs with the finding and recommendations and
supports the concepts proposed by the Department to resolve and implement the
recommendations.

OIG Comments

We understand the State’s assertion that because they based PIPP payments on
overall employee performance and not specific tasks, they can allocate the
payments to Federal Assistance Program grants. However, the State measures
employee performance based on specific types of activities. Federal regulations
and FWS policy prohibit some of these activities from being charged to the
grants. While the employees to whom the State paid PIPP payments did charge
some of their time under Federal Assistance Program grants, the performance
indicators measured and used to justify the payments were in some cases for
activities unallowable under federal regulations. For example, one measure of
performance that resulted in a PIPP payment ($1,389 of which was reimbursed
under a grant) involved enforcing laws prohibiting off-highway vehicle and boat
users from operating the vehicles while under the influence. Such law
enforcement activities are not allowable uses of grant funds. The Department also
received reimbursement of $1,715 to pay for a PIPP award justified based on a
performance measure for outreach activities. The activities involved increasing
the effectiveness of employees at marketing Department achievements through
                               6
     the media. Such marketing activities are also unallowable charges under the
     grants.

     The Department may only request reimbursement for PIPP payments that are
     justified using performance measures for activities that are allowable charges to
     the grants under Federal laws and regulations and FWS guidance.

     FWS Region 2 management concurs with the recommendations, but additional
     information is needed in the corrective action plan, including the actions taken or
     planned; targeted completion dates; titles of the officials responsible for
     implementation; and verification that FWS headquarters officials reviewed and
     approved of actions.

2.   Overstated or Understated Equipment Costs — $200,064

     The Department charged grants for equipment using rates that it developed based
     on the prior year’s actual operating costs. This method is acceptable if the
     Department accounts for any overstatement or understatement of costs by
     adjusting the current grant to reflect actual costs or adjusting the following year’s
     rate to account for over-recovery or under-recovery of costs. However, we found
     the Department did not take either of these steps. Therefore, the Department may
     have overstated or understated equipment costs for SFYs 2004 and 2005.

     As covered in Finding A.1 above, 50 C.F.R. § 80.15 defines allowable costs, and
     50 C.F.R. § 80.16 addresses payments for the federal share of allowable costs. In
     addition, OMB Circular A-87, Attachment A, Section C, states that — to be
     allowable under federal awards — costs must be allocable to the awards and
     adequately documented.

     The Department had not established a procedure to ensure that the amounts
     recovered for equipment at fiscal year-end reflected the actual equipment costs for
     the fiscal year. We were unable to determine whether the Department overstated
     or understated costs, and are, therefore, questioning claimed equipment costs of
     $298,588 ($200,064 federal share) for SFYs 2004 ($149,754) and 2005
     ($148,834).

     Recommendations

     We recommend that FWS require the Department to:

     1.    resolve the questioned costs of $200,064,

     2.    adjust the equipment charges to FWS grants for SFYs 2004 and 2005 based
           on actual costs incurred, and

     3.    develop and implement policies and procedures to ensure that charges made
           to grants for equipment reflect actual costs.

                                     7
     Department Response

     Department officials concur with the audit finding. They propose to resolve the
     questioned costs by amending the SFYs 2004 and 2005 Financial Status Report
     (SF-269). The amendment will reduce the equipment charges to the grant. The
     Department plans to offset those reduced charges with other eligible costs it
     incurred that were not previously charged to the grants. Officials indicated that
     they would work with FWS Federal Assistance Program personnel before
     reconciling the equipment charges. In addition, officials indicated that they
     developed and implemented procedures, which include a process to ensure that
     they charge actual equipment costs to grants. The Special Services Division,
     Office of Finance and Accounting, Finance and Accounting Branch Chief
     developed the procedures.

     FWS Response

     FWS Region 2 management concurs with the recommendations and supports the
     concepts proposed by the Department to resolve the findings and implement the
     recommendations.

     OIG Comments

     FWS Region 2 management concurs with the recommendations, but additional
     information is needed in the corrective action plan, including verification that
     FWS headquarters officials reviewed and approved of actions taken by the
     Department. The plan should also contain the actions taken or planned, including
     documentation on the new procedure for charging equipment and actions taken to
     reconcile the questioned costs; targeted completion dates; and titles of the
     officials responsible for implementation.

3.   Out-of-Period Costs — $269,931

     The Department claimed costs of $404,065 ($269,931 federal share) that were
     incurred outside the grant periods of two grants. These costs consisted of labor
     and fringe benefits, unexpended advances, and grazing lease costs.

     Specifically, on grants FW-100-P-11 and FW-100-P-12, which ended on June 30
     of 2004 and of 2005, respectively, the Department claimed the following out-of-
     period costs.

            $365,089 in labor and fringe benefits charged for pay periods that included
            days outside the grant period. The incorrectly charged pay periods were
            those that ended July 4, 2003 (reflecting $146,530 in out-of-period costs
            on grant FW-100-P-11) and July 2, 2004 ($218,559 in out-of-period costs
            on grant FW-100-P-12).




                                    8
         $37,336 for unexpended advance payments to the U.S. Post Office for
         future services on grants. The advance payments resulted in unexpended
         advance balances at the end of the grant periods, including $15,855 for
         FW-100-P-11 and $21,481 for FW-100-P-12.

         $1,640 for grazing lease costs billed in March 2005 that were for leasing
         fees for the period July 1, 2005, through March 14, 2006. The grant
         period of FW-100-P-12 ended June 30, 2005.

We summarize the questioned out-of-period costs in the table below.

                         Grant Number         Grant Number               Federal
                                                             Total
                         FW-100-P-11          FW-100-P-12                 Share
     Labor and fringe          $146,530           $218,559 $365,089       $243,889
     Unexpended
     Advances                        15,855         21,481      37,336      24,959
     Grazing leases                       0          1,640       1,640       1,083
                                $162,385          $241,680     404,065    $269,931

                    Table 2. Questioned Out-of-Period Costs by Grant

Title 43 C.F.R. § 12.63(a) prohibits a grantee from charging costs that result from
obligations incurred outside of the funding period.

The Department charged out-of-period costs because it did not have procedures in
place to identify and eliminate such expenditures.

Recommendations

We recommend that FWS:

1.      resolve the questioned costs of $269,931 and

2.      require the Department to establish policies and procedures to prevent
        claiming costs incurred outside of the grant period.

Department Response

Department officials did not agree with the finding regarding labor and fringe
benefit charges outside the grant period. However, they plan to amend the
Financial Status Report for both SFYs 2004 and 2005 to:

      charge only labor and fringe benefit costs incurred within each grant period
      for each fiscal year and
      reduce charges to the grants for the advance payments and grazing leasing
      costs.

                                 9
     The officials indicated they would offset the reduced charges for out-of-period
     costs with other eligible costs that the Department incurred and were not
     previously charged to the grants. In addition, officials indicated that the
     Director’s Office of Funds and Planning, Funds Planning Manager, implemented
     a written policy and procedure to ensure that labor and fringe benefit costs are
     charged within the grant period.

     FWS Response

     FWS Region 2 management concurs with the recommendations and supports the
     concepts proposed by the Department to resolve the findings and implement the
     recommendations.

     OIG Comments

     FWS Region 2 management concurs with the recommendations, but additional
     information is needed in the corrective action plan, including verification that
     FWS headquarters officials reviewed and approved of actions taken by the
     Department. The plan should also contain the actions taken or planned, including
     documentation on the new procedure for charging equipment and actions taken to
     reconcile the questioned costs; targeted completion dates; and titles of the
     officials responsible for implementation.

4.   Improperly Claimed Leave Payout Costs — $32,142

     The Department improperly claimed $47,267 ($32,142 federal share) as a direct
     cost for unused annual leave payments on grant FW-100-P-11.

     According to OMB Circular A-87 (since codified as 2 C.F.R. § 225), Attachment
     B.8.d(3), an agency that uses the cash basis of accounting should recognize the
     cost of leave in the period the leave is taken and paid. To be allowable in the year
     of payment, unused leave paid to retiring and departing employees must be
     allocated as a general administrative expense to all activities of the agency.

     The Department used the cash basis of accounting but did not allocate leave
     payouts as a general administrative expense to all activities. Rather, it charged
     such payouts directly to the grant.

     Recommendations

     We recommend that FWS:

     1.    resolve the questioned cost of $32,142 and

     2.    require the Department to establish policies and procedures to prevent leave
           payouts from being claimed as direct charges to Federal Assistance
           Program grants.


                                    10
     Department Response

     Department officials plan to amend the Financial Status Report for both SFYs
     2004 and 2005 to deduct the charges for improperly claimed leave payout. The
     officials plan to offset the reduced charges with other eligible costs that the
     Department incurred and were not previously charged to the grants. In addition,
     officials stated the Director’s Office of Funds and Planning established a
     Departmental policy and procedure to comply with OMB Circular A-87,
     Attachment B.8.d(3).

     FWS Response

     FWS Region 2 management concurs with the recommendations and supports the
     concepts proposed by the Department to resolve the findings and implement the
     recommendations.

     OIG Comments

     FWS Region 2 management concurs with the recommendations, but additional
     information is needed in the corrective action plan, including verification that
     FWS headquarters officials reviewed and approved of actions taken by the
     Department. The plan should also contain the actions taken or planned, including
     documentation on the new procedure for charging equipment and actions taken to
     reconcile the questioned costs; targeted completion dates; and titles of the
     officials responsible for implementation.

5.   Improperly Charged Direct Costs — $8,040

     The Department must have an indirect cost rate approved by an authorized agency
     for each year it claims indirect costs. It prepares an indirect cost rate proposal,
     which it submits to the agency for approval. The Department improperly claimed
     $12,000 ($8,040 federal share) as direct costs for the development of its indirect
     cost rate proposal. In addition, according to Department officials, the Department
     used indirect cost rates on programs other than those funded by Federal
     Assistance Program grants.

     The preparation and development of an indirect cost rate proposal is normally
     treated as an indirect cost since it is used for the recovery of indirect costs. OMB
     Circular A-87, Attachment E (recently codified as 2 C.F.R. § 225), supports this
     treatment. As stated previously, this Circular defines indirect costs as those that
     are incurred for common or joint purposes and that benefit more that one cost
     objective.

     Recommendations

     We recommend that FWS:

     1.    resolve the questioned costs of $8,040 and
                                    11
     2.    ensure the Department charges development of future indirect cost rate
           proposals as an indirect cost.

     Department Response

     Department officials plan to amend the SFYs 2004 and 2005 Financial Status
     Reports to reduce the amounts charged to the grants for development of the
     indirect cost rate proposal. The officials plan to offset the reduced charges with
     other eligible costs that the Department incurred and were not previously charged
     to the grants. In addition, officials indicated the Department established a policy
     and procedure to comply with OMB Circular A-87, Attachment E, effective in
     SFY2007.

     FWS Response

     FWS Region 2 management concurs with recommendations and supports the
     concepts proposed by the Department to resolve the findings and implement the
     recommendations.

     OIG Comments

     FWS Region 2 management concurs with the recommendations, but additional
     information is needed in the corrective action plan, including verification that
     FWS headquarters officials reviewed and approved of actions taken by the
     Department. The plan should also contain the actions taken or planned, including
     documentation on the new procedure for charging equipment and actions taken to
     reconcile the questioned costs; targeted completion dates; and titles of the
     officials responsible for implementation.

6.   Overstated Costs — $4,620

     The Department did not credit grant FW-100-P-12 for the $7,000 received
     ($4,620 federal share) from the disposal of a vehicle originally purchased with
     Federal Assistance Program funds.

     The requirements for disposal of property are included in 43 C.F.R. § 12.72(e)(2).
     This regulation allows grantees to sell items of equipment that grant funds
     purchased. It also requires that grantees credit the awarding agency for the
     agency’s share of the current market value or sale price of the equipment.

     The Department Operating Manual, Section E, Chapter 2, provides the procedures
     and policies that implement the federal requirement. However, the Department
     had not followed the procedure related to the disposition of monies from asset
     sales. As a result, the Department had not credited grant FW-100-P-12 for the
     $7,000 received from the disposal of equipment purchased with Federal
     Assistance funds. It, therefore, overstated reported costs on the grant.



                                    12
     Recommendations

     We recommend that FWS:

     1.    resolve the questioned costs of $4,620 and

     2.    ensure the Department complies with its procedures on the sale of
           equipment.

     Department Response

     Department officials plan to amend the Financial Status Report for SFY2005 to
     credit the amount received for the vehicle. In addition, officials indicated the
     Director’s Office of Funds and Planning, in conjunction with the Special Services
     Division, Finance and Accounting Office will monitor compliance with the
     Departmental policy relating to this issue.

     FWS Response

     FWS Region 2 management concurs with the recommendations and supports the
     concepts proposed by the Department to resolve the findings and implement the
     recommendations.

     OIG Comments

     FWS Region 2 management concurs with the recommendations, but additional
     information is needed in the corrective action plan, including verification that
     FWS headquarters officials reviewed and approved of actions taken by the
     Department. The plan should also contain the actions taken or planned, targeted
     completion dates, and titles of the officials responsible for implementation.

7.   Improperly Charged Bookkeeping Costs — $686

     The Department has treated bookkeeping services inconsistently with other
     accounting expenditures. The Department factored accounting expenditures such
     as bookkeeping into its indirect cost rate proposal. The Department also claimed
     direct costs of $1,009 ($686 federal share) for bookkeeping services.

     Regulations require that costs be treated consistently to be allowable under federal
     awards (see OMB Circular A-87 (recently codified as 2 C.F.R. § 225),
     Attachment A, Section C(1)(f), Factors affecting allowability of costs). In other
     words, once a cost has been allocated to a federal grant as indirect, a cost claimed
     for the same purpose in a like circumstance may not be assigned to the grant as a
     direct cost.

     Therefore, we question the costs for bookkeeping services. The Department
     would have already recovered these costs through the indirect cost rate.

                                    13
            Recommendations

            We recommend that FWS:

            1.    resolve the questioned costs of $686 and

            2.    ensure departmental staff are aware of and follow the requirements of
                  2 C.F.R. § 225.

            Department Response

            Department officials plan to amend the Financial Status Report SF-269 for
            SFY2004 to reduce the amount charged to the grants for bookkeeping services.
            Officials did not comment on recommendation 2.

            FWS Response

            FWS Region 2 management concurs with the recommendations and supports the
            concepts proposed by the Department to resolve the findings and implement the
            recommendations.

            OIG Comments

            FWS Region 2 management concurs with the recommendations, but additional
            information is needed in the corrective action plan, including the actions taken or
            planned; targeted completion dates; titles of the officials responsible for
            implementation; and verification that FWS headquarters officials reviewed and
            approved of actions taken.

B.   Inadequate Support for In-kind Contributions

     Under Federal Assistance Program grants, FWS may reimburse a State up to 75 percent
     of grant expenditures, provided the State expends the required matching share of grant
     costs. When a State uses third party in-kind contributions to meet its matching share,
     regulations require that the contributions be verifiable from grantee records and that, to
     the extent feasible, the grantee support volunteer services by the same method used to
     support regular personnel costs (see 43 C.F.R. § 12.64(b)(6)). The Department used
     volunteer hours to provide its State matching share, but did not require each volunteer to
     certify his or her hours claimed, although it does require employees to certify their hours
     claimed.

     We tested volunteer hours claimed under grant FW-100-P-12 for performing hunter
     education in May and June of 2005. Of the 519 hours reported, we found that 359 were
     not certified by a signature of the volunteer involved. On grants FW-100-P-11 and -12,
     the Department claimed in-kind matching volunteer hours totaling $183,417 and
     $203,569, respectively. For the in-kind match related to the grant’s hunter education
     project, the Department documented the volunteer hours on a form titled ―Hunter
     Education Instructor Activity Report.‖ This form provides space for a listing of the
                                            14
     individual volunteer instructors who assist in the course and a single signature for the
     chief instructor.

     Department officials were not aware of the requirement to provide certified time sheets
     for volunteer hours. They stated that they did not comply with this regulatory
     requirement because their methodology has not been questioned in the past.

     Recommendation

     We recommend that FWS require the Department to establish and implement procedures
     for volunteers to certify the hours they work.

     Department Response

     Department officials indicated they established a Departmentwide policy and procedure
     on the use and documentation of volunteer hours. In addition, they indicated that an
     individual staff member is responsible solely for monitoring and data collection of
     volunteer hours. They added that any volunteers hours utilized for the State match will
     be properly documented.

     FWS Response

     FWS Region 2 management concurs with the recommendation and will consider the
     finding resolved and implemented when they review the revised Department procedures
     to verify the procedures ensure the volunteers certify the hours they work.

     OIG Comments

     FWS Region 2 management concurs with the recommendation, but additional
     information is needed in the corrective action plan, including verification that FWS
     headquarters officials reviewed and approved of actions taken by the Department. The
     plan should also contain the actions taken or planned, including documentation of the
     policy and procedure established to address the recommendation; targeted completion
     dates; and titles of the officials responsible for implementation.

C.   Improperly Reported Program Income

     The Department improperly reported program income in two instances. First, aircraft
     operated using Federal Assistance Program grant funds were rented to other agencies, but
     the rental fees were not reported as program income. The Department used the aircraft
     rental income to offset grant expenditures by crediting reported grant outlays in an
     amount equal to the rental revenues. As a result, the Department did not report aircraft
     revenues totaling $74,425 on grant FW-100-P-11 or $109,698 on grant FW-100-P-12.

     Second, the Department received program income from a shooting range but did not use
     the grant agreement-specified method of reporting it. Instead of using the additive
     method to report this income, the Department mistakenly used the deductive method.

                                            15
     According to Title 43 C.F.R. § 12.65(b), program income is gross income the grantee
     receives that is generated by a grant supported activity or earned during the grant period
     only as a result of the grant agreement. Grantees ordinarily deduct program income from
     total allowable costs to determine the net allowable costs (deductive method). The
     grantor may allow the grantee to use program income to 1) meet the cost sharing or
     matching requirement or to 2) add to the project funds (additive method).

     We are not questioning the costs related to the reporting of program income. The
     Department credited current-year grant expenditures with the aircraft revenues, and
     expended the shooting range program income on grant activities.

     Recommendations

     We recommend that FWS require the Department to:

     1.    report aircraft rental revenues that are directly supported by the grant as program
           income and

     2.    report program income in compliance with the grant agreement.

     Department Response

     Department officials indicated that they will report aircraft rental revenues that are
     supported by the grant as program income. In addition, they plan to implement a quality
     review process to ensure they report program income properly.

     FWS Response

     FWS Region 2 management concurs with the recommendations and supports the
     concepts proposed by the Department to resolve the finding and implement the
     recommendations.

     OIG Comments

     FWS Region 2 management concurs with the recommendations, but additional
     information is needed in the corrective action plan, including verification that FWS
     headquarters officials reviewed and approved of actions taken by the Department. The
     plan should also contain the actions taken or planned, targeted completion dates, and
     titles of the officials responsible for implementation.

D.   Potential for Diversion of License Revenue

     The Department used license fee revenues — in part — to pay indirect costs and received
     reimbursement from Federal Assistance Program grant funds for the expenses. Because
     the Department originally financed the costs with license revenue, the reimbursements
     should have been treated as license revenue and expended in accordance with applicable
     regulations. However, the Department deposited the reimbursement into a fund called


                                            16
the Indirect Cost Recovery Fund. There are no limitations on allowable uses of this
Fund, which created the possibility of a diversion of license revenue.

Title 50 C.F.R. § 80.4 states that hunting and fishing license fee revenues must not be
diverted from administration of the State fish and wildlife agency. Section 80.4(a)(4)
states that when license revenues originally funded project costs, Federal Assistance
project reimbursements for those costs should be treated as license revenue.

The Arizona General Accounting Office (GAO) required the Department to transfer all
federal grant indirect cost reimbursements to the Indirect Cost Recovery Fund. However,
it did not establish regulations limiting their use when funded with license revenues. We
found that all uses of the Indirect Cost Recovery Fund were for administration of the
Department. Nevertheless, without regulations, the possibility exists that the Fund may
be used for other types of activities.

Recommendation

We recommend that FWS require the Department to work with the Arizona GAO to
establish regulations that ensure reimbursements for indirect costs that were originally
funded with license fees are used only for Department administration.

Department Response

Department officials plan to seek assistance from the Arizona GAO to establish a policy
and procedure to ensure reimbursements for indirect costs originally funded with license
fees are used for the administration of the Department. In the interim, officials indicated
the Funds Planning Manager will document a policy and procedure utilizing the Arizona
GAO Accounting Manual standards.

FWS Response

FWS Region 2 management concurs with the recommendation and supports the concepts
proposed by the Department to resolve and implement the recommendation. FWS will
work with the Department to develop procedures to preclude such findings in the future.
The resolution and documentation will be included in the Corrective Action Plan.

OIG Comments

FWS Region 2 management concurs with the recommendation, but additional
information is needed in the corrective action plan including the actions taken or planned;
targeted completion dates; titles of the officials responsible for implementation; and
verification that FWS headquarters officials reviewed and approved of actions.




                                       17
                                                                  Appendix 1


                  ARIZONA DEPARTMENT OF GAME AND FISH
                 FINANCIAL SUMMARY OF REVIEW COVERAGE
                    JULY 1, 2003, THROUGH JUNE 30, 2005


   Grant                                            Questioned    Federal
                Grant Amount          Claimed
  Number                                              Costs        Share
FW-100-P-11         $15,247,003       $15,672,213    $655,648    $445,841
FW-100-P-12          15,750,617        15,173,756     705,604     465,699
F-19-D-17*            1,115,459           812,176
F-19-D-18             1,097,351           900,512
F-19-D-19*            1,120,505           428,389
F-19-D-20*            1,126,053           345,706
                    $35,456,988       $33,332,752   $1,361,252   $911,540
*Interim Financial Status Report (SF-269)




                                        18
                                      Appendix 2


ARIZONA DEPARTMENT OF GAME AND FISH
           SITES VISITED


            Headquarters
           Phoenix, Arizona


            Wildlife Areas
              Arlington
            Base Meridian
             Cluff Ranch
           Raymond Ranch
            Robbins Butte


           Fish Hatcheries
            Page Springs


           Shooting Range
             Ben Avery




                19
                                                                                 Appendix 3


                  ARIZONA DEPARTMENT OF GAME AND FISH
               STATUS OF AUDIT FINDING AND RECOMMENDATIONS


  Recommendations                   Status                        Action Required
A1.1, A1.2, A1.3,        FWS management concurred        Additional information is needed in
A2.1, A2.2, A2.3,        with the recommendations,       the corrective action plan, including
A3.1, A3.2, A4.1,        but additional information is   the actions taken or planned to
A4.2, A5.1, A5.2,        needed.                         implement the recommendations,
A6.1, A6.2 A7.1,                                         targeted completion date(s), the title
A7.2, B, C.1, C.2, and                                   of the official(s) responsible for
D                                                        implementation, and verification that
                                                         FWS officials reviewed and
                                                         approved of actions taken or planned
                                                         by the Department. We will refer
                                                         the recommendations if not resolved
                                                         and/or implemented at the end of 90
                                                         days (after September 3, 2007) to
                                                         the Assistant Secretary for Policy,
                                                         Management and Budget for
                                                         resolution and/or tracking of
                                                         implementation.




                                             20
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
